 Office of Inspector General
      Audit Report


IMPROVEMENTS NEEDED IN FMCSA’S
PLAN FOR INSPECTING BUSES AT THE
  UNITED STATES-MEXICO BORDER
   Federal Motor Carrier Safety Administration

         Report Number: MH-2014-007
        Date Issued: November 26, 2013
           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Improvements Needed in                                                 Date:    November 26, 2013
           FMCSA’s Plan for Inspecting Buses at
           the United States-Mexico Border
           Report No. MH-2014-007

  From:    Joseph W. Comé                                                              Reply to
                                                                                       Attn. of:   JA-40
           Assistant Inspector General for Highway
              and Transit Audits

    To:    Federal Motor Carrier Safety Administrator

           Under the 1994 North American Free Trade Agreement (NAFTA), the United
           States and Mexico agreed to long-haul, cross-border transportation of cargo and
           passengers. Since 2002, Section 350(c) of annual appropriations legislation 1 has
           required that no vehicles owned or leased by Mexican motor carriers may be
           permitted to operate beyond commercial zones 2 until the Office of Inspector
           General (OIG) verifies the Federal Motor Carrier Safety Administration’s
           (FMCSA) implementation of eight safety criteria. These criteria, detailed in
           exhibit B, include maintaining staffing and infrastructure for monitoring Mexico-
           domiciled carriers and capacity to conduct meaningful inspections of commercial
           vehicles and drivers at United States-Mexico border crossings.

           We have issued 10 audit reports on FMCSA’s implementation of Section 350(c)
           and on pilot programs authorizing long-haul, cross-border trucking services
           between the United States and Mexico (see exhibit C). In August 2009, 3 we
           recommended the Agency improve its capacity to perform bus inspections
           (see exhibit D).

           Our objectives for this audit were to determine whether FMCSA (1) is complying
           with the Section 350(c) safety requirements and (2) took sufficient action to

           1
             Department of Transportation and Related Agencies Appropriations Act of 2002, Pub. L. No. 107-87 (2001). Each
           year, the appropriations legislation has extended OIG’s audit requirement.
           2
             Commercial zones generally extend 3 to 25 miles north of United States-Mexico border municipalities (or 75 miles
           within the State of Arizona).
           3
             Follow–Up Audit on the Implementation of the North American Free Trade Agreement’s (NAFTA) Cross–Border
           Trucking Provisions (OIG Report Number MH-2009-068), Aug.17, 2009. OIG reports are available on our Web site at
           http://www.oig.dot.gov/.
                                                                                              2


implement our prior recommendations for improving its capacity to perform bus
inspections at the border. To conduct our work, we observed inspection operations
at 10 of 27 passenger carrier border crossings, including crossings in the 6 highest
volume counties. We assessed FMCSA’s border enforcement staffing,
mechanisms used by inspectors to check commercial driver records, inspection
practices and data, and FMCSA’s implementation of our 2009 audit
recommendations. We conducted this audit from September 2012 through
September 2013 in accordance with generally accepted Government auditing
standards. Exhibit A provides more details on our scope and methodology.

RESULTS IN BRIEF
FMCSA generally complies with Section 350(c) safety requirements. It has
staffing, facilities, equipment, and procedures in place to conduct inspections of
Mexico-domiciled carriers, vehicles, and drivers. FMCSA’s border staffing has
decreased slightly, but the Agency is training new applicants and reviewing its
staffing requirements to better identify its personnel needs and allocate its
resources. However, from October 2012 to August 2013, a disruption in FMCSA’s
routing software—referred to as the Gateway 4—has prevented States from
entering Mexican driver conviction reports into the Commercial Driver’s License
Information System (CDLIS), an information platform used to transmit driver
history records for commercial driver’s license holders. The resulting backlog of
conviction data could potentially delay enforcement action against some Mexican
drivers that should be disqualified for moving violations, such as driving under the
influence or excessive speeding. During the period of the disruption, FCMSA
requested that States mail in paper copies of the conviction reports. FMCSA has
also implemented alternative procedures during the disruption that allows
inspectors to access information on Mexican commercial drivers.

FMCSA has taken steps to improve passenger carrier safety at the border but has
not taken sufficient actions to fully address our prior recommendations for
improving its capacity to inspect buses. In response to our August 2009
recommendations, FMCSA agreed to (1) revise its bus safety plan to include the
frequency of required bus inspections and identify actions to eliminate obstacles to
achieving inspection coverage during all periods during which the crossings are
open, and (2) work with United States Customs and Border Protection (CBP) and
the General Services Administration (GSA) to assess the safety and efficiency of
bus inspection space and pursue additional accommodations as appropriate.
FMCSA updated its bus safety plan in December 2011, 5 but the plan does not
adequately address bus inspection frequency or identify actions to eliminate
inspection obstacles—actions that would better position FMCSA to target its
4
    FMCSA’s CDLIS Gateway is routing software that allows authorized users to access CDLIS.
5
    FMCSA, “Bus Safety Enforcement at the Southern Border,” Dec. 2011.
                                                                                                                 3


inspection resources. FMCSA also worked with other agencies to identify
alternative inspection space at certain locations, but it has not negotiated
interagency agreements with CBP to establish standard bus inspection protocols or
completed facility and staffing assessments needed to fully address inspection
safety and efficiency issues.

We are making recommendations to improve FMCSA’s implementation of the
NAFTA cross-border provisions and its bus safety plan.

BACKGROUND
Considerable bus traffic travels through United States-Mexico border crossings.
According to Bureau of Transportation Statistics (BTS), more than 421,000 buses
carrying over 5.6 million passengers entered the United States during fiscal years
2011 and 2012. United States-domiciled and Mexico-domiciled buses enter the
United States through 27 crossings. Most bus volume occurs at nine primary
crossings in six counties located in California and Texas—representing 96 percent
of bus entries and 94 percent of passenger entries (see table 1). 6 The highest
volume county—San Diego, CA— represents almost half of all border entries, and
the next three highest volume counties—Webb, TX; El Paso, TX; and Hidalgo,
TX—each represented 10 percent or more of total bus and passenger entries.

Table 1. Average Annual Bus and Passenger Border Entries in
Six Highest Volume Counties, Fiscal Years 2011 Through 2012
                                                                                      Number of       Percent of
                                                       Number of      Percent of      Passenger       Passenger
    County           Primary Border Crossings         Bus Entries    Bus Entries         Entries         Entries
    San Diego, CA    San Ysidro, Otay Mesa                 99,952              47        687,164               24

    Webb, TX         Lincoln-Juarez                        41,837              20        967,257               34

    El Paso, TX      BOTA, Paso Del Norte                  23,307              11        467,674               17

    Hidalgo, TX      Hidalgo                               20,681              10        307,315               11

                     Nogales Mariposa, Nogales
    Santa Cruz, AZ                                           8,738               4       161,855                6
                     DeConcini

    Cameron, TX      Veterans Bridge                         7,307               4         44,862               2

    Total for High-Volume Counties                        201,822              96      2,636,127               94

    Total for Low-Volume Counties                            8,905               4       172,937                6

*Percentages rounded.
Source: BTS, based on data from CBP.


6
  Five higher volume counties (San Diego, Webb, El Paso, Hidalgo, and Cameron) have lower volume passenger
crossings that average 2 to 30 bus entries per month. CBP and BTS could not provide entry data for these crossings.
                                                                                    4


FMCSA and the States inspect drivers and/or vehicles for approximately 7 percent
of bus entries in the highest volume counties, similar to the 8 percent inspection
rate for large truck entries. Inspection rates are affected by various factors such as
bus volume, inspection schedules, inspector qualifications, and facility conditions.
Bus inspections are based on the Commercial Vehicle Safety Alliance’s (CVSA)
North American Standard Inspection Procedures (see exhibit E), which categorize
inspection types by levels. A Level I inspection examines the driver and bus,
including the undercarriage (brake system, steering components, and suspension).
Less comprehensive inspections review only the driver (Level III) or only the
vehicle (Level V).




     Source: Photos obtained from FMCSA.

Inspections at the border may result in the driver and/or vehicle being placed out
of service, which means that a bus cannot continue operating until the violations
are corrected. According to FMCSA data on roadside inspections of passenger
carriers for calendar year 2012, the rate of drivers placed out of service while
operating Mexico-domiciled passenger vehicles was 8.7 percent, compared to the
5.1-percent rate for drivers operating United States-domiciled passenger vehicles.
The rate of Mexico-domiciled passenger vehicles placed out of service was
11.9 percent, compared to the 6.5-percent rate for United States-domiciled
passenger vehicles.

FMCSA GENERALLY COMPLIES WITH SECTION 350(C)
REQUIREMENTS, BUT A SOFTWARE DISRUPTION MAY DELAY
RECORDING AND ENFORCEMENT OF DRIVER CONVICTIONS
FMCSA generally complies with the safety requirements set forth in Section
350(c), as it has staffing, facilities, equipment, and procedures in place to conduct
inspections of Mexico-domiciled carriers, vehicles, and drivers. FMCSA’s border
staffing has decreased slightly, but the Agency is training new applicants and
                                                                                 5


reviewing its staffing requirements to better identify its personnel needs and
allocate its resources. However, a software disruption in FMCSA’s routing
software—or Gateway—has prevented States from uploading Mexican driver
conviction reports into CDLIS. FMCSA implemented alternative procedures
during the disruption that allows inspectors to access information on Mexican
commercial drivers, but States’ transmittal of Mexican driver conviction
information to CDLIS has been delayed. The resulting backlog of convictions
could potentially delay enforcement action against some Mexican drivers, posing a
potential adverse impact on safety.

Border Enforcement Staffing Decreased, but FMCSA Is Training New
Applicants and Assessing Staffing Needs

Section 350(c) requires the Department to staff and train border inspectors. As of
January 2013, FMCSA’s border enforcement staff consisted of 233 inspectors,
auditors, investigators, and other personnel—a slight decrease of 4 percent
compared to 2011 (243 staff) and a decrease of 8 percent compared to 2007
(254 staff). The decrease in staff can be attributed to normal attrition, and FMCSA
has plans to fill vacancies with nine border personnel that are currently attending
FMCSA’s training academy.

FMCSA is also conducting a staffing assessment with the Volpe Center to
evaluate whether FMCSA has appropriate border personnel allocated by role and
location. According to FMCSA, the assessment should allow more effective
allocation of resources and identification of potential personnel needs. FMCSA
anticipates completion of this assessment by September 30, 2013. However, until
FMCSA completes the staffing assessment, the Agency does not have full
assurance that it has sufficient border enforcement staffing, and appropriate
allocation of staff, to comply with Section 350(c) requirements.

A Software Disruption Could Delay Recording and Enforcement of
Mexican Driver Convictions
From October 2012 to August 2013, a disruption in FMCSA’s routing software—
or Gateway—to CDLIS has prevented inspectors from accessing its database to
check the status of Mexican commercial drivers. This database includes
information on whether the driver’s license has been suspended or revoked based
on the individual’s driving record in Mexico or in the United States. The
disruption occurred when FMCSA transitioned its CDLIS Gateway service to a
new vendor under a $2.6-million contract. FMCSA issued a $540,000 contract
modification to restore service and meet current security standards.

After the disruption, FMCSA implemented alternative procedures that called for
inspectors to review Mexico’s transportation ministry Web site for access to
                                                                                                                  6


Mexican driver records. We confirmed the alternative procedures were in place
and working. However, the Gateway disruption also delayed required 7 State
reporting of Mexican commercial driver conviction information to CDLIS, which
resulted in a backlog of conviction data on Mexican drivers’ moving violations.
Accurate and complete reporting of convictions is important because, under
FMCSA regulations, certain convictions for moving violations—such as driving
under the influence or excessive speeding—can result in disqualification of the
driver.

During the disruption, FMCSA requested that States mail paper-based convictions
to the new vendor for data entry. FMCSA and its contractor established quality
control procedures for the management, review, and processing of convictions and
license withdrawals, but we did not review these controls. As of August 2013,
FMCSA’s vendor had received about 3,400 paper-based convictions from the
States. The vendor is currently scanning and analyzing the backlog of convictions
but found that 90 percent of 974 analyzed convictions from 3 border States
required additional processing because of problems such as conviction forms not
conforming to specifications. Considering these problems and earlier transition
issues the vendor has faced, timely and accurate processing of the backlog may be
a challenge. According to FMCSA, the conviction data may not be completely
uploaded until November 2013. The backlog of convictions could potentially
result in delayed enforcement action against some Mexican drivers.

FMCSA HAS NOT TAKEN SUFFICIENT ACTION TO ADDRESS
OUR RECOMMENDATIONS FOR IMPROVING ITS CAPACITY TO
PERFORM BUS INSPECTIONS AT THE BORDER
FMCSA has taken steps to improve passenger carrier safety at the border, but has
not taken sufficient actions to meet the intent of our prior recommendations for
improving its capacity to perform bus inspections at the border. These include
actions for (1) updating its bus safety plan to establish inspection frequency and
address obstacles to inspection coverage, and (2) working with CBP and GSA to
assess the safety and efficiency of bus inspection spaces.




7
 The Moving Ahead for Progress in the 21st Century Act (MAP-21) requires States to report convictions of foreign
commercial drivers. MAP-21 requires such reports to include each conviction by a driver holding a foreign commercial
or non-commercial driver’s license, or by an unlicensed driver.
                                                                                                                    7


FMCSA Has Not Fully Addressed Our Recommendation on
Establishing Inspection Frequency and Eliminating Obstacles to
Inspection Coverage
While FMCSA updated its bus safety plan to describe its strategy for conducting
bus inspections at border crossings, the plan does not specifically identify the
frequency of required bus inspection coverage—an action FMCSA agreed to take
in response to our 2009 report. For example, the plan does not specify whether
weekend inspection coverage is required or how often inspectors should be on
duty at high-volume crossings—some of which are open 24 hours a day, 7 days a
week. Instead, the plan is a descriptive overview that details the average monthly
entries at each bus crossing (based on CBP data 8), the hours of operation at the
crossings, and the types of inspections, if any, that can be conducted by FMCSA at
the locations. For instance, according to the plan, the DeConcini crossing in
Nogales, AZ, is open 24 hours per day, averages 243 bus crossings per month, and
has the capacity to conduct Level III (driver-only) inspections at this location.
CBP officials stated that buses enter at DeConcini from 10 p.m. to 6 a.m. each day
when the nearby Mariposa crossing closes to bus traffic. During our site visit, we
observed bus traffic entering DeConcini between 10 p.m. and 1 a.m. without
inspection. FMCSA officials stated that they do not schedule inspections at this
crossing. The lack of inspection coverage at DeConcini and potential mitigation
strategies to address it are not discussed in the bus plan. The plan also does not
discuss the allocation and prioritization of inspectors at close proximity crossings,
such as at the DeConcini and Mariposa crossings.

Although FMCSA’s bus safety plan acknowledges the need for extended coverage
at high-volume locations 9 and identifies alternative inspection locations—such as
bus terminals, tourist destinations, carrier terminals, and maintenance facilities—it
does not specify how frequently these alternative actions should be used or link
the strategies to the locations where the alternative actions would be most needed.
Instead, the plan states that FMCSA has established protocols ensuring consistent
inspection coverage at the majority of bus crossings, but it does not support this
assertion with targets for inspection frequency at each location.

Additionally, the bus safety plan does not identify actions to eliminate obstacles to
achieving inspection coverage during all periods that crossings are open—another
action FMCSA agreed to take when responding to our 2009 report. For example,

8
  In its bus safety plan, FMCSA states that it is unclear how CBP counts large passenger vans that are subject to
FMCSA regulation or the extent to which accounting for them would increase the population of passenger vehicles that
need to be periodically inspected. A 2008 study sponsored by FMCSA concluded that about 75 percent of commercial
passenger vehicle traffic at the border consisted of motor coaches and 25 percent consisted of passenger vans.
9
  In addition to FMCSA’s enforcement personnel, 352 State inspectors conduct large truck and bus inspections at the
United States-Mexico border. FMCSA conducts most of the bus inspections at the border, while States mainly conduct
roadside inspections within the border counties. Lincoln-Juarez is the only crossing we visited that had a significant
State inspection presence at the border.
                                                                                                              8


while FMCSA’s plan notes the limitation produced by inadequate lighting at
certain crossings, most notably at San Ysidro, CA, it does not identify potential
actions to address this obstacle, such as adding portable lighting at these crossings.
Overall, passenger carriers entering during evening hours are less likely to be
inspected. For instance, in fiscal year 2012, FMCSA and the States conducted
87 percent of all border inspections between 7 a.m. and 7 p.m.

We recognize the challenges posed with implementing our prior recommendations
on establishing inspection frequency and eliminating obstacles to inspection
coverage at each location. These challenges include wide variations among
crossings in the frequency of scheduled inspections, traffic volumes, and types of
inspections conducted. However, as part of this review, we identified opportunities
for FMCSA to provide additional guidance in the bus safety plan to address these
variations and mitigate inspection gaps. For example:

• The number of days when FMCSA scheduled passenger carrier inspections
  varied by the border crossings we visited, but the plan does not identify the
  rationale for variations in inspection coverage or provide mitigation strategies
  for inspection gaps (see table 2).

     Table 2. Variations in Inspection Coverage
     Quarter Ending September 2012
     Passenger Border            Average Scheduled                Weekend
     Crossing                     Days Per Month                Inspections
     Lincoln-Juarez                         21                       Yes
     Hidalgo                                 6                       No
     San Ysidro                              5                       Yes
     Otay Mesa                               2                       Yes
     El Paso                      No regular schedule                No

     Source: FMCSA and the Motor Carrier Management Information System (MCMIS)

     Moreover, our analysis of fiscal year 2012 bus inspections in El Paso and
     Hidalgo Counties identified 37 periods, 18 and 19 respectively, of 7 days 10 or
     more without a single passenger carrier inspection. Three of these periods
     equaled or exceeded a month without an inspection. In addition, no bus
     inspections were scheduled at the DeConcini crossing in Nogales, AZ, despite
     statements in the plan that FMCSA had the ability to perform inspections at
     that location.



10
  According to FMCSA’s hours of service rule, drivers of commercial passenger vehicles may not drive after 60/70
hours on duty in 7/8 consecutive days.
                                                                                                               9


• Inspection coverage was not consistent with the amount of border traffic.
  FMCSA’s plan does not identify mitigation strategies to address the gaps
  between traffic volume and inspection coverage. Overall, our analysis shows
  that FMCSA and State inspectors conducted 51 percent of their bus inspections
  in counties with only 12 percent of bus volume from Mexico in fiscal years
  2011 and 2012. For example, FMCSA and State inspectors conducted
  21 percent of all Southern Border inspections in Santa Cruz County, AZ,
  although only 4 percent of buses entered through this county.

• The volume and location of Level I (complete vehicle and driver), Level III
  (driver-only) and Level V (vehicle-only) inspections also varied, but the
  variation did not necessarily correspond with the facilities’ different inspection
  capacities. For example, at Veterans International Bridge in Brownsville, TX—
  a facility equipped to perform full vehicle inspections—FMCSA conducted
  Level I (complete vehicle and driver) inspections and Level V (vehicle-only)
  inspections for less than 1 percent of its 1,695 inspections in fiscal year 2012.
  In contrast, FMCSA inspectors in San Diego County—operating from a
  portable inspection facility on a city street—conducted Level I complete
  inspections for 95 percent of its 537 inspections.

• The volume of passenger van
  inspections also varied. In fiscal year
  2012, FMCSA and State inspectors in
  Nogales and San Diego Counties
  performed more than 1,100 passenger
  van inspections in fiscal year 2012.
  In contrast, they inspected only
  16 vans in high volume Texas border
  counties, despite a 25 percent out-of-
  service rate for passenger vans in FMCSA inspector directs a bus onto ramps for a
  Texas. FMCSA’s bus plan did not Level I (complete vehicle and driver) inspection at
  identify the rationale for these Otay Mesa, CA.
  variations or mitigation strategies to Source: Photo by OIG.
  address these gaps between facilities’ inspection capabilities and the types of
  inspections performed. (See exhibit F for additional details on our analysis of
  bus inspections at the border.)

A bus safety plan with additional analysis and mitigation strategies to address
these variations in inspection coverage would better position FMCSA to target its
inspection resources to the highest risk locations and complement other FMCSA
initiatives to target enforcement actions on the highest risk passenger carriers. 11

11
  FMCSA described these initiatives in its Motorcoach Safety Action Plan, initially issued in 2009 and updated in
2012.
                                                                                  10


FMCSA Has Not Fully Addressed Our Recommendation To Assess
the Safety and Efficiency of Bus Inspection Spaces

In response to our 2009 recommendations, FMCSA agreed to work with CBP and
GSA to assess the safety and efficiency of bus inspection space and pursue
additional accommodations as appropriate. FMCSA worked with CBP to identify
alternative inspection space at certain locations, such as Otay Mesa, CA. We
observed FMCSA officials conducting inspections at this location.

FMCSA started but has not completed an assessment of the safety and efficiency
of bus inspection capacity. FMCSA completed an initial truck and bus inspection
facility master planning study in September 2012. The study outlined space
requirements, traffic volume, staffing, and inspection constraints. It also
prioritized 6 bus crossings as “urgent” in terms of facility needs and identified
12 other facilities that would be considered in later stages of the plan. FMCSA is
moving forward to the next planning phase in August 2013, a feasibility study in
coordination with GSA and CPB to determine if adequate space exists for
permanent inspection facilities, temporary inspection canopies, and traffic flow
modeling. FMCSA officials indicated, however, that the feasibility plan and
construction of permanent inspection facilities are long-term efforts that might
take years to complete.

Additionally, FMCSA lacks an interagency agreement with CBP Headquarters to
establish standard inspection protocols for safe and efficient bus inspections across
the border. Of the 27 passenger carrier crossings, only the Hidalgo, TX, crossing
had a written agreement with CBP establishing policies and procedures for
inspecting vehicles and drivers and placing them out of service. A written
interagency agreement between FMCSA and CBP would provide clear guidance
to border staff and ensure more consistent implementation across the border.
FMCSA and CBP field officials agreed that an agreement would provide benefits,
such as continuity during changes in leadership.

The continued need to work on bus inspection safety and efficiency issues is
demonstrated by inspection practices and conditions we observed during our
current review at certain border crossings. Generally, FMCSA does not have
permanent facilities to perform bus inspections, and the number and physical
capacity of FMCSA’s temporary inspection spaces limit the number of inspections
FMCSA can realistically perform. At some locations, the close proximity of
inspection space to moving traffic does not adequately provide for the safety of
personnel conducting inspections. For example:

• At the San Ysidro crossing in San Diego, CA, FMCSA worked with the
  California Highway Patrol to find inspection space on the shoulder of a public
  road near the CBP compound. FMCSA and CBP also identified two spaces
                                                                                            11


   inside the CBP compound at the
   Lincoln-Juarez crossing in Laredo,
   TX. However, these spaces lack
   protective barriers between the
   inspection areas and the roads, and
   there is inadequate lighting for
   evening inspections.

• At the Bridge of the Americas and
  Paso Del Norte crossings in El Paso,
  TX, inspectors rarely inspect
  vehicles because of CBP concerns Inspection          on the shoulder of a public road near San
                                            Ysidro, CA, border crossing.
  about passenger safety and security Source: Photo by OIG.
  when buses are placed out of
  service. FMCSA and State inspectors in El Paso County conducted only
  10 Level I (complete vehicle and driver) inspections and 2 Level II (driver and
  vehicle walk around) inspections for buses in fiscal year 2012. Despite this
  limitation, FMCSA did not work with CBP or the Texas Department of Public
  Safety to identify a safe, alternative site for bus inspections. As an example of
  infrequent vehicle inspections, we identified a Mexico-domiciled carrier with a
  fleet of 10 buses that received 54 driver inspections but no vehicle inspections
  during the last 2 fiscal years.

CONCLUSION
Robust border inspection processes and practices are important for ensuring
FMCSA’s continued compliance with cross-border trucking provisions and the
safety of vehicles entering the United States from Mexico. FMCSA is challenged
to improve bus inspection processes and practices at the border given the need to
collaborate with other agencies and variations among border crossings. While
FMCSA’s actions are noteworthy, additional focus to improve the bus safety plan
and its implementation will further advance the safety goals of the program and its
efforts to reduce bus-related fatalities and injuries.

RECOMMENDATIONS
We recommend the Federal Motor Carrier Safety Administrator:

1. Complete the staffing assessment being conducted with the Volpe Center.

2. Eliminate the backlog of conviction reports and confirm that the vendor
   complied with quality controls for managing and processing convictions.
                                                                                 12


3. Update and periodically review the bus safety plan to (a) address frequency of
   border inspections based on evaluation of traffic volume and available
   resources, and link alternative inspection strategies to the specific crossings,
   (b) identify the rationale for variations in inspection coverage and for
   conducting different levels of inspections, and (c) detail mitigation strategies
   to address gaps between traffic volume and inspection coverage.

4. Complete the feasibility assessment to address the challenges associated with
   inspecting passenger carriers.

5. Negotiate a written agreement with United States Customs and Border
   Protection, at the Headquarters level, to establish standard inspection
   protocols for safe and efficient bus inspections across the border.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided FMCSA with our draft report on September 23, 2013, and received
its response on November 19, 2013. FMCSA’s complete response is included as
an appendix to this report. In its response, FMCSA concurred with all five of our
recommendations.

For recommendation 2, FMCSA provided documentation that it completed
appropriate actions to implement the recommendation. Accordingly, we consider
this recommendation resolved and closed.

For recommendations 1, 3, and 4, FMCSA provided appropriate planned actions
and target completion dates. Accordingly, we consider these recommendations
resolved but open pending completion of planned actions.

For recommendation 5, FMCSA agreed to establish a written agreement with CBP
and to initiate agreement negotiations by December 31, 2014. However, FMCSA
stated that challenges, such as finite space at border locations, may prevent the
Agency from achieving a final written agreement despite its best efforts. We
acknowledge these potential challenges and note that FMCSA may revise its
estimated completion date to allow additional time to address any challenges it
encounters during negotiations. We consider this recommendation resolved but
open pending completion of the agreement.

ACTIONS REQUIRED
In accordance with follow-up provisions in Department of Transportation Order
8000.1C, we request that FMCSA provide our office with documentation
demonstrating completion of its planned actions. We appreciate the courtesies and
                                                                                13


cooperation of Department of Transportation and Department of Homeland
Security representatives during this audit. If you have any questions concerning
this report, please call me at (202) 366-5630 or Kerry R. Barras, Program Director,
at (817) 978-3318.
                                        #

cc: FMCSA Audit Liaison, MCPRS
    DOT Audit Liaison, M–1
                                                                                14



EXHIBIT A. SCOPE AND METHODOLOGY
We conducted our work from September 2012 through September 2013 in
accordance with generally accepted Government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient and
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our objectives for this audit were to determine whether FMCSA (1) is complying
with the Section 350(c) safety requirements and (2) took sufficient action to
implement our prior recommendations for improving its capacity to perform bus
inspections at the border.

We visited 5 FMCSA border offices and observed operations at 10 of
27 passenger carrier border crossings (see table 3). We selected our site visits
based on bus entry volume, and visited 9 high volume crossings and one low
volume crossing. At each border crossing visited, except for DeConcini, we
observed bus and driver inspection procedures and operations, inspection-related
facilities, and equipment. Our safety specialists, with extensive law enforcement
and vehicle inspection experience, provided us with technical assistance on the bus
inspections we observed.

Table 3. FMCSA Border Offices and Passenger Carrier Border
Crossings Selected for Site Visits
5 FMCSA Border Offices 10 Passenger Carrier Border Crossings
                       San Ysidro
Otay Mesa, CA
                       Otay Mesa
                       Lincoln Juarez
Laredo, TX
                       Eagle Pass
                       Bridge of the Americas
El Paso, TX
                       Paso Del Norte
                       Hidalgo
Weslaco, TX
                       Veterans International Bridge
                       Mariposa
Nogales, AZ
                       DeConcini


We created and used structured checklists and questionnaires to gather information
regarding the Section 350(c) safety requirements during our site visits to border
offices. We interviewed officials from FMCSA, CBP, and the States to identify
(1) border inspection conditions and variations from our 2009 audit, (2) actions
taken in response to our 2009 audit recommendations, (3) current inspection


Exhibit A. Scope and Methodology
                                                                                 15


procedures used to permit passenger carriers entry into the United States, and
(4) working relationships between border staff from different agencies. During
these interviews we also discussed inspection capacity, limitations, and alternative
strategies for conducting passenger carrier inspections in the commercial zone. We
interviewed FMCSA officials to determine the status of the Gateway disruption,
steps being taken to restore the Gateway connection, and alternative procedures
used to verify the status of Mexico-domiciled drivers. During subsequent visits to
border crossings, we confirmed whether FMCSA inspectors were able to execute
the alternative procedures. Finally, we monitored FMCSA’s progress in
overseeing the resulting backlog of conviction data.

We evaluated FMCSA’s policies and procedures, evaluated internal controls, and
reviewed documentation related to staffing, training, and inspections. We
reviewed FMCSA’s December 2011 bus safety plan for provisions we
recommended in 2009 and compared the plan to our observations of bus and
driver inspections during site visits to the 10 border crossings. We also evaluated
FMCSA’s actions to improve its capacity to conduct passenger carrier inspections.
We analyzed CBP and BTS data on bus and passenger entry volume, and MCMIS
data on passenger carrier border inspection activity and coverage for fiscal years
2009 through 2012. We confirmed data reliability in terms of accuracy,
completeness, and expected values for the selected data fields that we evaluated.




Exhibit A. Scope and Methodology
                                                                                                 16



EXHIBIT B. SECTION 350(c) REQUIREMENTS
Section 350(c) of the Department of Transportation and Related Agencies
Appropriations Act of 2002, and subsequent appropriations legislation, requires
that no vehicles owned or leased by a Mexico-domiciled motor carrier may be
permitted to operate beyond United States municipalities and commercial zones
under conditional or permanent operating authority granted by FMCSA until OIG
conducts a comprehensive review of border operations to verify that—

(A)   all new inspector positions have been filled and inspectors have been fully trained.

(B)   each inspector conducting on-site safety compliance reviews in Mexico is fully trained as a
      safety specialist.

(C)   the staffing requirement has not been met by transferring experienced inspectors from other
      parts of the United States to the United States-Mexico border.

(D)   FMCSA has implemented a policy to ensure compliance with hours-of-service rules by
      Mexican motor carriers seeking long-haul operating authority.

(E)   the information infrastructure of the Mexican government is sufficiently accurate, accessible,
      and integrated with that of United States enforcement authorities to verify the status and
      validity of licenses, vehicle registrations, operating authority, and insurance of Mexican
      motor carriers while operating in the United States. Adequate telecommunications links exist
      at border crossings and in mobile enforcement units operating adjacent to the border, to
      ensure that licenses, vehicle registrations, operating authority, and insurance information
      can be easily and quickly verified.

(F)   there is adequate capacity at each border crossing to conduct a sufficient number of
      meaningful vehicle safety inspections and to accommodate vehicles placed out of service.

(G)   there is an accessible database containing sufficiently comprehensive data to allow safety
      monitoring of all Mexican motor carriers, and their drivers, that apply for long-haul authority.

(H)   measures are in place to enable United States law enforcement authorities to ensure the
      monitoring and enforcement licensing procedures for Mexican motor carriers.




Exhibit B. Section 350(c) Requirements
                                                                       17



EXHIBIT C. PRIOR NAFTA CROSS-BORDER AUDIT COVERAGE
The following is a list of prior OIG reports issued on NAFTA:

• Increased Participation and Improved Oversight Mechanisms Would Benefit
  the NAFTA Pilot Program (OIG Report Number MH-2012-169),
  Aug. 16, 2012.

• FMCSA Generally Complies With Statutory Requirements, but Actions Are
  Needed Prior To Initiating Its NAFTA Cross-Border Trucking Pilot Program
  (OIG Report Number MH-2011-161), Aug. 19, 2011.

• Follow-Up Audit on the Implementation of the North American Free Trade
  Agreement’s Cross-Border Trucking Provisions (OIG Report Number
  MH-2009-068), Aug. 17, 2009.

• Status Report on NAFTA Cross-Border Trucking Demonstration Project
  (OIG Report Number MH-2009-034), Feb. 6, 2009.

• Interim Report on NAFTA Cross-Border Trucking Demonstration Project
  (OIG Report Number MH-2008-040), Mar. 10, 2008.

• Issues Pertaining to the Proposed NAFTA Cross-Border Trucking
  Demonstration Project (OIG Report Number MH-2007-065), Sept. 6, 2007.

• Follow-Up Audit of the Implementation of the North American Free Trade
  Agreement’s Cross-Border Trucking Provisions (OIG Report Number
  MH-2007-062), Aug. 6, 2007.

• Follow-up Audit of the Implementation of the North American Free Trade
  Agreement’s (NAFTA) Cross-Border Trucking Provisions (OIG Report
  Number MH-2005-032), Jan. 3, 2005.

• Follow-up Audit on the Implementation of Commercial Vehicle Safety
  Requirements at the U.S.-Mexico Border (OIG Report Number MH-2003-041),
  May 16, 2003.

• Implementation of Commercial Vehicle Safety Requirements at the
  U.S.-Mexico Border (OIG Report Number MH-2002-094), June 25, 2002.




Exhibit C. Pri or N AFTA Cross-Border Audit Coverage
                                                                                 18



EXHIBIT D. STATUS OF AUGUST 2009 RECOMMENDATIONS
In our August 2009 report, Follow-Up Audit on the Implementation of the North
American Free Trade Agreement’s Cross-Border Trucking Provisions, 12 we
recommended the FMCSA Acting Deputy Administrator:

1. Improve the monitoring of Mexican Federal CDL holders operating in the
   United States by (a) developing and implementing a timely report that
   identifies state data inconsistencies in the Mexican Conviction Database
   (MCDB), and assigning in the MCDB data quality control plan the
   responsibilities to address and follow up on data inconsistencies; (b) assessing
   whether legislative, regulatory, or MCDB system changes are needed to ensure
   consistent reporting and matching of different categories of traffic convictions,
   including convictions in non-commercial vehicles and convictions occurring
   under various types of Mexican-issued licenses; and (c) developing an action
   plan for implementing identified changes in the monitoring process, based on
   assessment results.

       STATUS: FMCSA fully implemented all parts of recommendation 1, and
       OIG closed the recommendation on October 18, 2011.

2. Improve the capacity to perform bus inspections at United States-Mexico
   border bus crossings by (a) adding to its Bus Inspection Plan the frequency of
   required bus inspections at non-commercial crossings and inspections during
   any hour the border crossing is opened, to include evening and weekend hours,
   and to include actions to eliminate obstacles to achieving inspection coverage
   during all open periods; and (b) working with the Customs and Border
   Protection Service, and other agencies as appropriate, to assess the safety and
   efficiency of bus inspection locations and space at all non-commercial border
   crossings at the southern border.

       STATUS: Recommendations 2(a) and 2(b) remain open. Actions needed to
       fully implement these recommendations are described in this report.




12
     Report Number MH-2009-068, Aug. 17, 2009.


Exhibit D. St atus of August 2009 Recommendations
                                                                                         19



EXHIBIT E. CVSA INSPECTION PROCEDURES
      Level                                                      I   II   III   IV   V    VI
 1    Choose the Inspection Site                                 ●   ●    ●               ●
 2    Approach the Vehicle                                       ●   ●    ●               ●
 3    Greet and Prepare the Driver                               ●   ●    ●               ●
 4    Interview Driver                                           ●   ●    ●               ●
 5    Collect the Driver’s Documents                             ●   ●    ●               ●
 6    Check for Hazardous Materials and Dangerous Goods          ●   ●    ●               ●
 7    Identify the Carrier                                       ●   ●    ●               ●
 8    Examine the Driver’s License                               ●   ●    ●               ●
      Check Medical Examiner’s Certificate and                                            ●
 9                                                               ●   ●    ●
      Skill Performance Evaluation Certificate (If Applicable)
 10   Check Record of Duty Status                                ●   ●    ●               ●
 11   Review Driver’s Daily Inspection Report (If Applicable)    ●   ●    ●               ●
 12   Review Periodic Inspection Report(s)                       ●   ●    ●               ●
 13   Prepare Driver for Vehicle Inspection                      ●   ●               ●    ●
 14   Inspect Front of Tractor                                   ●   ●               ●    ●
 15   Inspect Left Front Side of Tractor                         ●   ●               ●    ●
 16   Inspect Left Saddle Tank Area                              ●   ●               ●    ●
 17   Inspect Trailer Front                                      ●   ●               ●    ●
 18   Inspect Left Rear Tractor Area                             ●   ●               ●    ●
 19   Inspect Left Side of Trailer                               ●   ●               ●    ●
 20   Inspect Left Rear Trailer Wheels                           ●   ●               ●    ●
 21   Inspect Rear of Trailer                                    ●   ●               ●    ●
 22   Inspect Double, Triple and Full Trailers                   ●   ●               ●    ●
 23   Inspect Right Rear Trailer Wheels                          ●   ●               ●    ●
 24   Inspect Right Side of Trailer                              ●   ●               ●    ●
 25   Inspect Right Rear Tractor Area                            ●   ●               ●    ●
 26   Inspect Right Saddle Tank Area                             ●   ●               ●    ●
 27   Inspect Right Front Side of Tractor                        ●   ●               ●    ●
 28   Inspect Steering Axle(s)                                   ●                   ●    ●
 29   Inspect Axle(s) 2 and/or 3 (Under Carriage of CMV)         ●                   ●    ●
 30   Inspect Axle(s) 4 and/or 5                                 ●                   ●    ●
 31   Check Brake Adjustment                                     ●                   ●    ●

 32   Inspect Tractor Protection System (Tests both tractor      ●                   ●    ●
      protection system and emergency brakes.)
 33   Inspect Required Brake System Warning Device               ●   ●               ●    ●
 34   Test Air Loss Rate                                         ●   ●               ●    ●
 35   Check Steering Wheel Lash                                  ●   ●               ●    ●
 36   Check Fifth Wheel Movement                                 ●                   ●    ●
 37   Complete the Inspection                                    ●   ●    ●          ●    ●




Exhibit E. CVS A I nspection Procedures
                                                                                             20



EXHIBIT F. ADDITIONAL DETAILS ON OIG ANALYSIS OF
FMCSA’S BORDER INSPECTION DATA
Our review determined that the frequency of passenger carrier inspection coverage
varied among FMCSA’s border field offices (see table 4). As a result, some
counties had lower inspection rates than others. For example, in San Diego
County, FMCSA inspected less than 1 percent of the 199,903 bus entries during
fiscal years 2011 and 2012. In El Paso County, FMCSA inspected less than one
bus or driver per day, or 1 percent of the 46,613 bus entries over the 2-year period.

Table 4. FMCSA and State Passenger Carrier Inspection Rates in
the Six Highest Volume Counties, Fiscal Years 2011 and 2012
                                                              Inspection Rate*             Total
Primary                                  Bus                                          Inspection
Border Crossings         County       Entries   Inspections   FMCSA        State           Rate*
San Ysidro, Otay Mesa San Diego       199,903         9,042       0.5            4            5

Lincoln-Juarez           Webb          83,674         5,770         4            3            7

BOTA, Paso Del Norte     El Paso       46,613          920          1            1            2

Hidalgo                  Hidalgo       41,362          948          2        0.1              2
Nogales Mariposa,
                         Santa Cruz    17,476         7,154        37            4           41
Nogales DeConcini
Veterans Bridge          Cameron       14,613         4,448        26            4           30
Total 9 Primary Crossings
                                      403,641       28,282          4            3            7
(6 Counties)
Total Low Volume Counties              17,810         5,548        10            21          31

*Inspection rates rounded.
Source: Bus entry data obtained from BTS, based on CBP data. Inspection data obtained from
MCMIS.

Our analysis also indicated that bus entries in the six highest volume counties
declined 10 percent since 2009, yet FMCSA and State passenger carrier
inspections in those counties declined by 19 percent—nearly twice the decline in
entries (see table 5). In addition, FMCSA’s inspections actually decreased by
43 percent—offset by a 76-percent increase in State inspections during the same
time period. However, most of the State increase was attributable to school bus
inspections in California. For example, 45 percent of State inspections in San
Diego County were inspections of United States-domiciled school buses not likely
to cross the border.




Exhibit F. Additional Details on OIG Anal ysis of FM CS A’ s Border
Inspection Dat a
                                                                                                         21


Table 5. Changes in Bus Entries Versus Changes in Passenger
Carrier Inspections in the Six Highest Volume Counties, Fiscal
Years 2009 Through 2012
                                            Percent                                    Percent       Percent
     Primary                   FY 2012      Change                                   Change in     Change in
     Border                        Bus       in Bus      FY 2009        FY 2012          Total       FMCSA
     Crossings      County      Entries     Entries   Inspections    Inspections   Inspections   Inspections
     San Ysidro,    San
                              101,658            -8         1,839         4,484          +144          +132
     Otay Mesa      Diego
     Lincoln-
                    Webb       38,758            -7         4,795         2,832            -41           -54
     Juarez
     BOTA, Paso
                    El Paso    22,849          +12            605           400            -34           -41
     Del Norte
     Hidalgo        Hidalgo    21,510           -31         1,126           456            -60           -60
     Nogales
                    Santa
     Mariposa and                8,212          -26         5,819         3,779            -35           -41
                    Cruz
     DeConcini
     Veterans
                    Cameron      7,693           -8         3,122         1,981            -37           -40
     Bridge
     Total                    200,680           -10        17,306        13,932            -19           -43

Source: Bus entry data from BTS, based on CBP data; inspection data from MCMIS.

Further, our analysis indicates that FMCSA conducts mainly Level III (driver-
only) inspections while States conduct mainly Level V (vehicle-only) inspections
(see figures 1 and 2). Level V inspections are typically scheduled inspections, and
FMCSA’s 2013 Commercial Vehicle Safety Plan states that scheduled inspections
are less reliable than unannounced inspections for detecting violations and
assessing the vehicle’s operating condition. Overall, State inspectors performed
more Level I complete driver and vehicle inspections than FMCSA: approximately
35 percent of States’ inspections were Level I, and 16 percent of FMCSA’s
inspections were Level I. 13




13
  By comparison, FMCSA and State inspectors performed Level I truck inspections at a 67-percent rate in high-
volume counties during fiscal years 2011 and 2012.

Exhibit F. Additional Details on OIG Anal ysis of FM CS A’ s Border
Inspection Dat a
                                                                         22


Figure 1. FMCSA and State Passenger Carrier Inspections by
Level, Annual Averages from Fiscal Years 2011 and 2012




Source: Inspection data obtained from MCMIS.




Figure 2. FMCSA Passenger Carrier Inspections by Level and
County, Fiscal Year 2012

 Cameron


   El Paso


  Hidalgo
                                                                    Level 1
                                                                    Level 2
San Diego
                                                                    Level 3
    Santa                                                           Level 5
     Cruz

    Webb

             0      500       1000      1500   2000   2500   3000

Source: Inspection data obtained from MCMIS.




Exhibit F. Additional Details on OIG Anal ysis of FM CS A’ s Border
Inspection Dat a
                                                           23



EXHIBIT G. MAJOR CONTRIBUTORS TO THIS REPORT


Name                   Title

Kerry R. Barras        Program Director

Darrell A. Riegel      Project Manager

Anthony V. Saraco      Senior Auditor

Anette Soto            Senior Analyst

Patrick D. Conley      Auditor

Christina Lee          Writer-Editor

Seth B. Kaufman        Senior Counsel

William Savage         Information Technology Specialist




Exhibit G. Major Contributors to This Report
                                                                                                        24


APPENDIX. AGENCY COMMENTS




Subject: ACTION: Response to OIG Draft Report on                          Date: November 19, 2013
         NAFTA Cross-Border Safety Requirements

From: Anne S. Ferro                                                       Reply to: MC-P
      Administrator

To:      Joseph W. Comé
         Assistant Inspector General
           for Highway and Transit Audits

This is in response to your September 23 memorandum providing me the opportunity to comment on the
Office of the Inspector General’s draft report, “Improvements Needed in FMCSA’s Plan for Inspecting
Buses at the United States-Mexico Border,” project number 12M3003M000. We have completed our
review of the draft report and concur with the recommendations. A detailed response is provided below.

THE FMCSA HAS IMPROVED BUS SAFETY AT BORDER LOCATIONS

The Federal Motor Carrier Safety Administration (FMCSA) has incorporated strategies to improve its
ability to better identify at-risk bus operations and enhance its ability to remove unsafe operations from
the Nation’s roadways. Specifically, FMCSA provided training to its inspectors and special agents,
including those at the border, on enhanced investigative techniques. The FMCSA has since observed a
marked improvement in its ability to identify and address unsafe bus operations. For example, the vehicle
out-of-service (OOS) rate for buses entering the United States from Mexico increased from 11.83% in
FY2007 to 22.24% in FY2013.

Additionally, the FMCSA’s investigations have resulted in enforcement of cross-border bus operations
that are based in the United States. In FY2013, the FMCSA declared two cross-border bus operations to
be imminent hazards and placed both OOS.

THE FMCSA CONTINUES TO IMPROVE BUS SAFETY AT BORDER LOCATIONS AND
DESTINATIONS

The FMCSA continues to address bus safety along the border and seek improvement where there is less
opportunity to safely inspect buses as they cross into the United States. Specifically, in Laredo, Texas,
FMCSA is working closely with the General Services Administration (GSA) and the U.S. Customs and
Border Protection (CBP) as they redesign a major bus port of entry (POE), which is also the largest bus
crossing in Texas. The redesign of the Laredo POE will include a facility that is specifically intended for
bus inspections, which will be a first for FMCSA. In addition to a dedicated inspection facility, FMCSA



        Appendix. Agency Comments
                                                                                                            25


has purchased new mobile inspection trailers that will be used to facilitate bus inspections, both at POEs
and locations away from the border.

The FMCSA continues to build strong relationships throughout the southern border with CBP and States,
allowing its special agents to spend additional time on CBP property and complete additional bus
inspections. For example, FMCSA personnel coordinate closely with CBP and the California Highway
Patrol at the Calexico East POE to conduct quarterly inspection strike forces. This coordination allows
for enforcement action to take place where FMCSA personnel are not normally able to conduct
inspections because of space and facility limitations. Additionally, during the weeks leading up to Easter
and Thanksgiving, FMCSA personnel in the Laredo, Texas area regularly conduct 24-hour inspection
details. The weeks leading up to these two holidays are some of the busiest times of the year for cross-
border bus traffic. The 24-hour details are staffed by FMCSA and Texas Department of Public Safety
personnel.

Furthermore, FMCSA is working diligently to maintain and develop its non-governmental partnerships to
ensure it has a robust bus inspection program. For example, the FMCSA has developed relationships
with Native American Tribal leaders who have granted access to facilities for the purpose of conducting
bus inspections at destinations, such as casinos, parks, and other tourist attractions.

RECOMMENDATIONS AND RESPONSES

Recommendation 1: “Complete the staffing assessment being conducted by the Volpe center.”

        Response: Concur. The Research and Innovative Technology Administration’s John A. Volpe
        National Transportation Center (Volpe) is currently conducting a staffing assessment for
        FMCSA. Volpe is in the process of completing its analysis and preparing its final report. The
        FMCSA anticipates completing this effort by December 31, 2013.

Recommendation 2: “Eliminate the backlog of conviction reports and confirm that the vendor complied
with quality controls for managing and processing convictions.”

        Response: Concur. The FMCSA’s contractor completed its review of the paper conviction
        reports. There is no remaining backlog of conviction reports. The North American Borders
        Division will be monitoring the electronic convictions for data quality and timeliness of entry into
        the system so that drivers are promptly disqualified, as needed. We have separately provided the
        OIG with appropriate documentation and ask that this recommendation be considered closed,
        final action complete.

Recommendation 3: “Update and periodically review the bus safety plan to (a) address frequency of
border inspections based on evaluation of traffic volume and available resources, and link alternative
strategies to the specific crossings; (b) identify the rationale for variations in inspection coverage and for
conducting different levels of inspections; and, (c) detail mitigation strategies to address gaps between
traffic volume and inspection coverage.”

        Response: Concur. The FMCSA will update its bus safety plan for border operations to address
        the frequency of bus inspections at each border crossing based upon traffic volume and resources;
        establish targeted inspection rates and plans for each crossing, taking into account both Federal
        and State resources; specify targeted inspection levels (i.e., 1-5) at each crossing, taking into




        Appendix. Agency Comments
                                                                                                         26


        account location capacity and safety; and explore alternative inspection strategies to augment bus
        inspections and address gaps in inspection coverage when established inspection frequencies
        cannot be met. The FMCSA will complete the update of its bus safety plan by March 31, 2014,
        and update the plan every 24 months thereafter, unless special circumstances dictate shorter
        update intervals.

Recommendation 4: “Complete the feasibility assessment to address the challenges associated with
inspecting passenger carriers.”

        Response: Concur. The FMCSA has entered into a feasibility study with the GSA and CBP to
        assess where and how FMCSA can inspect buses in a safe and effective manner. This study is
        expected to be completed by August 30, 2014.

Recommendation 5: “Negotiate a written agreement with United States Customs and Border Protection,
at the Headquarters level, to establish standard inspection protocols for safe and efficient bus inspections
across the border.”

        Response: Concur. The FMCSA concurs with the intent of this recommendation, which it
        believes to be the establishment of a written agreement with CBP to ensure continued access to
        CBP facilities for the purpose of conducting bus inspections that will not be interrupted in the
        event of personnel changes at these facilities. Upon completion of the feasibility study with GSA
        and CBP addressed in Recommendation 4, FMCSA will initiate negotiations for a written
        agreement with CBP at the headquarters level to address bus inspection protocols at border
        locations by December 31, 2014.

        The challenges to implementing this recommendation will be the finite space at border locations
        and concurrent action by the CBP to enter into such an agreement. The FMCSA anticipates that,
        should these negotiations not achieve final written agreement despite best efforts, the OIG would
        close this recommendation based upon a review of the Agency’s documentation demonstrating
        good faith efforts to enter into a written agreement.

        Additionally, the Department is currently negotiating a separate memorandum of agreement with
        CBP for the purpose of sharing trucking information and data from inbound Mexican trucks. As a
        part of the current negotiations, FMCSA will seek the inclusion of CBP bus destination
        information and data, if it is available. If this information and data is available, it will assist
        FMCSA in implementing alternative enforcement strategies to improve bus safety.

Thank you for this opportunity to offer our perspective on the OIG’s draft report. We also appreciate the
courtesies and professionalism of the OIG staff in conducting this review. Please contact Anne Collins,
Associate Administrator for Field Operations, by telephone at (202) 493-0013 with any questions or
requests for additional assistance.




        Appendix. Agency Comments
